0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae States of Utah,
Alabama, Arkansas, Connecticut, Florida, Georgia,
Idaho, Indiana, Iowa, Kansas, Louisiana, Maryland,
Montana, Nebraska, New Jersey, New Mexico, North
Dakota, Ohio, Oklahoma, South Carolina, South
Dakota, and Texas Supporting Petitioner, were sent
via Three Day Service to the U.S. Supreme Court, and
3 copies were sent via Three Day Service and e-mail to
the following parties listed below, this 26th day of
May, 2020:
William Ross Stoycos
Pennsylvania Office of Attorney General
16th Floor Strawberry Square
Harrisburg, PA 17120
(484) 467-7395
wstoycos@attorneygeneral.gov
Counsel for Petitioner
Peter Goldberger
50 Rittenhouse Place
Ardmore, PA 19003
(610) 649-8200
peter.goldberger@verizon.net
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISH ING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati , Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

A.

KERSHNER, J.D.

Sean D. Reyes
Utah Attorney General
Tyler R. Green*
Utah Solicitor General
Thomas B. Brunker
Deputy Solicitor General
John J. Nielsen
Assistant Solicitor General
Counsel for State of Utah
350 N. State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
tylergreen@agutah.gov

*Counsel of Record
Counsel for Amicus Curiae State of Utah

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 26, 2020.

ill/,1\l,fll ~ -

U)n&

Donna J. Wo f
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

